September 16, 2008

DOUG A. TULINO
VICE PRESIDENT, LABOR RELATIONS

SUBJECT:     Management Advisory – Grievance Settlement and Arbitration Award
             Payments (Report Number HM-MA-08-002)

This report presents the results of our self-initiated review of U.S. Postal Service
grievance settlement and arbitration award payments. Our objective was to determine
whether selected grievances should have been resolved prior to monetary settlements
or arbitration awards (Project Number 08YG021HM000). The review focused on the
10 highest paid grievance settlements or arbitration awards for fiscal year (FY) 2007,
which totaled $43.4 million and represented 27 percent of all payments in FY 2007
($161.2 million). This review addresses strategic and financial risk factors. Click here
to go to Appendix A for additional information about this review.

Conclusion

Early Resolution of 10 Highest Paid Grievances

We could not determine if all 10 highest paid grievances in FY 2007 should have been
resolved prior to monetary settlement or arbitration award. Specifically, settlement
documents for four of the 10 grievances did not contain sufficient information to make
this determination. The grievance case files may have contained more information;
however, we did not review the case files, due to the age of the grievances and the
likelihood that there were no systemic issues indicating they should have been resolved
earlier.

Arbitrator awards for five of the 10 grievances, however, indicated they could not be
resolved sooner because of contract interpretation differences and disagreements over
specific remedies. The remaining grievance award indicated resolution could have
been completed sooner, based on the arbitrator’s opinion that the Postal Service
intentionally violated the contract. Click here to go to Appendix B for a list of the
10 grievances. Click here to go to Appendix C for our detailed analysis of this issue.
Grievance Settlement and Arbitration Award Payments                           HM-MA-08-002



Identification of Grievance Payments and Costs

Postal Service management could not easily determine the top 10 grievance payments
in FY 2007 because there was no central source for recording grievance payment
information by grievance number. The significant amount paid for grievance
settlements and awards justify the need for a central source. Management plans to
enhance the Grievance Arbitration Tracking System (GATS) to centralize all grievance
payment information by early FY 2009.

We recommend the Vice President, Labor Relations:

   1. Formalize and obtain funding for the enhancement of the Grievance Arbitration
      Tracking System to centralize all grievance payment information as soon as
      possible.

We could not determine the associated grievance costs for steward time, arbitrator
costs, and labor relations staff salaries for each of the 10 grievances. Management did
not attribute these costs to each grievance because they did not believe it was
necessary or cost-effective. Management did, however, capture these costs monthly
and as year-to-date annual figures, which were $115.7 million in FY 2007. We believe
management’s current practice of tracking total costs and its ability to monitor grievance
activity at various levels of the grievance-arbitration process should provide sufficient
information to manage these associated costs. Therefore, we are not making a
recommendation regarding this issue.

Management’s Comments

Management agreed with the finding that they could not easily determine the top 10
grievance payments. Management also agreed with the recommendation and plans to
enhance the GATS by January 30, 2009, and develop cost reports. Management also
agreed that the four settlement documents did not contain sufficient information to
determine whether all 10 grievances should have been resolved prior to monetary
settlement. They stated that arbitrator decisions and settlement awards do not contain
sufficient background information to gain a full understanding of the grievances and that
a thorough review of all 10 case files would have been necessary to achieve the audit
objective. Management further stated they did not agree with the arbitrator’s opinion in
one award, that resolution could have occurred sooner. Click here to go to Appendix D
to see management’s comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendation and the actions should resolve the issue
identified in the report.




                                                 2
Grievance Settlement and Arbitration Award Payments                         HM-MA-08-002



The OIG considers the recommendation significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Chris Nicoloff, Director, Human
Capital, or me at (703) 248-2100.


   E-Signed by Darrell E. Benjamin, Jr
   VERIFY authenticity with ApproveIt

Darrell E. Benjamin, Jr.
Deputy Assistant Inspector General
 for Support Operations

Attachments

cc: Laurie A. Hayden
    Katherine S. Banks




                                                 3
    Grievance Settlement and Arbitration Award Payments                                            HM-MA-08-002



                             APPENDIX A. ADDITIONAL INFORMATION

BACKGROUND

The national agreements with the four major unions1 require the Postal Service and the
unions to “observe in good faith” the grievance-arbitration process to settle or withdraw
grievances at the lowest level whenever possible. The national agreements signed by
senior Postal Service management and the four union presidents include grievance-
arbitration procedures that Postal Service management, bargaining unit employees,2
and union representatives must follow. These procedures allow bargaining unit
employees (also referred to as craft employees)3 and the unions to resolve workplace
disputes, disagreements, complaints, and concerns.

The grievance-arbitration process generally consists of four steps4 for resolving
grievances. The first step usually requires bargaining unit employees who feel
aggrieved to discuss the issues with their immediate supervisors. Employees may also
seek union assistance at this step. If the employee and supervisor do not reach a
resolution, the employee can file a formal grievance through the union, or the union can
do so on its own initiative. The next three steps involve formal discussions with
appropriate management and union representatives at the local, regional, or national
level. The fourth step is available only at the national level and is used when a case of
national contract interpretation is at issue. The process also allows appeals of
unresolved grievances to arbitration, where an arbitrator selected by the Postal Service
and union makes a binding decision.

OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective was to determine whether selected grievances should have been resolved
prior to monetary settlements or arbitration awards. The review focused on the
10 highest paid grievance settlements and arbitration awards for FY 2007. These
10 grievances accounted for $43.4 million of the $161.2 million (27 percent) in
grievance and arbitration award payments for FY 2007.

To determine whether the selected grievances should have been resolved prior to
monetary settlements or arbitration awards, we obtained from Postal Service Labor
Relations staff copies of the 10 highest paid grievance settlements or arbitration awards
in FY 2007, award descriptions, and grievance payment amounts.
1
  The four major unions that negotiate with the Postal Service are the American Postal Workers Union (APWU), the
National Association of Letter Carriers (NALC), the National Postal Mail Handlers Union (NPMHU), and the National
Rural Letter Carriers’ Association (NRLCA).
2
  Bargaining unit employees are represented by a union and include city and rural letter carriers, clerks, mail
handlers, special delivery messengers, maintenance employees, and motor vehicle operators.
3
  Employees are organized along craft lines. The APWU represents clerks, motor vehicle operators, building and
equipment maintenance personnel, and vehicle maintenance personnel; the NALC represents city delivery carriers;
the NPHMU represents mail handlers; and the NRLCA represents rural delivery carriers.
4
  The APWU, NPHMU, and NRLCA refer to the various levels as Step 1 through Step 4. The NALC refers to the
levels as Step A and Step B, and as informal and formal.




                                                        4
    Grievance Settlement and Arbitration Award Payments                                            HM-MA-08-002




We reviewed grievance information in GATS, as well as the arbitration decisions and
settlement documents, to identify the reason for the settlements and awards and
determine whether the resolutions could have been made earlier.5 Four of the
settlement documents we reviewed contained information on how the award settlement
would be implemented, but did not contain background information on the case history.
We elected not to review the case files because of the age of the grievances (3 to 16
years old) and the likelihood that there were no systemic issues indicating they should
have been resolved earlier.

We also obtained responses from the Vice President, Labor Relations, to questions
concerning why casual-in-lieu-of (CILO)6 cases filed after the Das decision7 were not
settled earlier and what the Postal Service did to address the Das decision. Finally, we
verified the cost figures for all grievance payments in FY 2007, which we obtained from
the Labor Relations staff with data provided by the OIG’s Computer Assisted
Assessment Techniques team.

We relied on GATS and the Pay Data File System for our data analysis. We did not test
controls over these systems. However, previous OIG reports related to these systems
did not reveal weaknesses that would impact our review. We believe the data is
sufficiently reliable to support our conclusions and recommendation.

We conducted this review from March through September 2008 in accordance with the
President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We
discussed our observations and conclusions with management officials on August 14,
2008, and included their comments where appropriate.




5
  In conducting this review, the OIG relied on the facts described in arbitration awards and settlement agreements
rather than attempting to interpret information in district case files.
6
  Casual employees may not be employed in lieu of full or part-time employees. Casual employees instead are used
as a supplemental work force, limited to two 90-day terms of casual employment in a calendar year and may also be
reemployed during the Christmas period for not more than 21 days.
7
  In his August 29, 2001, award, Arbitrator Shyam Das provided an interpretation of the union agreement (which
became binding) that stated the Postal Service could employ casual employees only as a limited-term supplemental
work force and not in lieu of career employees.




                                                        5
 Grievance Settlement and Arbitration Award Payments                              HM-MA-08-002



PRIOR AUDIT COVERAGE

We identified two previous OIG reports related to the grievance and arbitration process.

                       Report           Final Report Date
 Report Title          Number                                      Report Results
Postal Service       LH-AR-03-012      September 30, 2003     The Postal Service did not fully
and Union Labor                                               implement most prior OIG
Relations                                                     suggestions or recommendations
                                                              related to resolving grievances
                                                              as early as was practical.
                                                              Management stated they had
                                                              taken action on some OIG
                                                              recommendations but could not
                                                              unilaterally implement all of the
                                                              recommendations because of
                                                              contract obligations.
White Paper on       HM-OT-05-001        September 30, 2005   The Postal Service established a
the Nature of                                                 new performance-based pay
Grievances and                                                system to evaluate and hold
the Initiatives                                               Postal Service managers and
Taken to Reduce                                               supervisors accountable for
and Prevent Them                                              improving the labor-management
                                                              climate.

                                                              The Postal Service experienced
                                                              a decline in the number of
                                                              grievances filed, as well as the
                                                              number of backlogged
                                                              grievances by the four major
                                                              unions.




                                                  6
Grievance Settlement and Arbitration Award Payments            HM-MA-08-002



                 APPENDIX B. TOP 10 GRIEVANCE SETTLEMENT AND
                    ARBITRATION AWARD PAYMENTS IN FY 2007




                                            Redacted




                                                 7
    Grievance Settlement and Arbitration Award Payments                                                HM-MA-08-002



                                 APPENDIX C. DETAILED ANALYSIS

Early Resolution of 10 Highest-Paid Grievances

We reviewed 10 settlement agreements and / or arbitration awards provided by
management, as well as available grievance documentation in GATS. We could not
determine whether four of the 10 grievances should have been resolved prior to
monetary settlement because the settlement agreements did not contain sufficient
background information to make this determination. Grievance case files for the four
settlements may have contained more information; however, based on the age of the
grievances (3 to 16 years) and the likelihood that there were no systemic issues
signifying they should have been resolved earlier, we did not review the case files.

We determined that five of the 10 grievances could not be resolved prior to monetary
settlement or arbitration award because of contract interpretation differences and
disagreements over specific remedies. For example, in one grievance, the parties could
not agree whether the issue should be heard at the national level. In another, the
parties could not agree whether the issue was jurisdictional or an improper cross-craft
assignment. The remaining grievance award indicated that resolution could have been
made sooner based on the arbitrator’s interpretation of the facts and her opinion that the
Postal Service intentionally violated the contract because it did not use casual
employees as a limited-term supplemental workforce.

We determined that six of the 10 grievances were CILO cases,8 and three of those six
grievances were filed before the 2001 Das award decision. We questioned why these
grievances were not resolved immediately after the Das award, since that decision was
considered binding. The Vice President, Labor Relations, told us the Das award
resolved the interpretation of the contract language in dispute, but rendered no standard
monetary remedy for the parties to apply to grievances held pending his decision.
Because a specific remedy was not identified, and because the union advanced many
different arguments with a wide variety of remedy demands, the Postal Service had to
analyze and evaluate each CILO grievance separately.

Additionally, the Vice President, Labor Relations, described steps taken by the Postal
Service to comply with the Das award, which included:

      •   A series of teleconferences with area Human Resources and Labor Relations
          managers to review the Das award decision in-depth and provide instructions on
          how to address grievances held pending the Das award outcome.

      •   An August 2002 letter to all area Human Resources managers, advising that in
          FY 2003, all mail handler or carrier casuals used to perform APWU craft duties
          must be designated as specified in the Das award.
8
 Payments for the six CILO grievances totaled $28.8 million, representing 66 percent of the total costs for the
10 grievances ($43.4 million) and 18 percent of all payments in FY 2007 ($161.2 million).




                                                          8
    Grievance Settlement and Arbitration Award Payments                                                  HM-MA-08-002




      •   Contract negotiation changes in 2006 with the APWU, NPMHU, and NALC
          designed to eliminate future CILO grievances. The APWU contract now allows
          the Postal Service to have a casual complement not to exceed 6 percent of the
          total number of career employees within a given district. The NPMHU contract
          allows for a 12.5 percent casual cap on an installation basis. The NALC contract
          replaced the casual work force entirely with transitional employees.

The actions taken by the Postal Service may be the reason for the dramatic decrease in
the number of open CILO grievances in the last 8 years. For example, in January 2000,
6,633 grievances were classified as CILO cases, but as of May 15, 2008, 600 CILO
grievance cases were open. In addition, during this period, almost three times as many
CILO grievances (285) were denied by arbitrators compared to those sustained (107).

Identification of Grievance Payments and Costs

Postal Service management could not easily determine the top 10 grievance payments
in FY 2007. In addition, management could not provide the associated costs for the
10 highest-paid grievances, such as steward time, arbitrator costs, or salaries for Labor
Relations staff.

The Postal Service’s December 2007, Strategic Transformation Plan 2007 Update
states that all support functions examine their activities to streamline processes and
eliminate noncritical expenses. It further states that major areas of focus in this effort
include standardizing information technology and centralizing accounting and personnel
transactions. We believe good business practices also require the use of sound
methodologies for budgeting, recording, and reporting financial data related to the
Postal Service’s labor management issues, including costs associated with grievance
and arbitration proceedings. This was emphasized in the two prior OIG reports on this
issue. In addition, the significant amount paid for grievance settlements and awards
justify the need for a central source.

Management explained that the difficulty and delay in determining total FY 2007
grievance settlement and award payments occurred because there was no central
source for recording payment information by grievance number, and because of the
need to verify some paid amounts through the Payroll Data System. Specifically, lump-
sum grievance settlement and arbitration award payments are processed and tracked in
GATS. However, payments involving hour adjustments9 are manually processed at the
Eagan Accounting Service Center. A Labor Relations official stated in a June 13, 2008,
letter to union officials that the Postal Service plans to enhance the GATS to process
hour-adjustment payments by early FY 2009. In addition, he stated that when the

9
 A grievance hour adjustment is a payment to an employee based upon a hypothetical estimate of the amount of
compensation the recipient would have received in the absence of the personnel action deemed unjustified or
unwarranted through settlement or by a third party. Because of its flexibility, claims typically referred to as “make
whole” remedies are usually calculated through this method.




                                                            9
Grievance Settlement and Arbitration Award Payments                            HM-MA-08-002



processing of hour adjustment payments is automated, they anticipate bargaining unit
jobs will be impacted as redundancies are eliminated.

The significant amounts paid in FY 2007 for grievance settlements and awards
($161.2 million) support the need for a central source. We believe the proposed GATS
enhancement will allow the Postal Service to quickly and accurately determine
grievance cost payments by fiscal year, and will increase efficiency and reduce costs.

Regarding the $115.7 million in associated grievance costs, management explained
they did not attribute associated grievance costs such as steward time, arbitrator costs,
or labor relations staff salaries to specific grievances because they did not believe it was
necessary or cost-effective. Instead, these costs were available only as monthly and
year-to-date annual figures. For example, the Time and Attendance Control System
does not require that stewards charge their time to individual grievances. Management
also stated arbitrators’ costs are not broken out by individual grievances; instead, the
invoices might include several hearing dates for different grievances. Further, Labor
Relations personnel do not spend 100 percent of their time processing and resolving
grievances; therefore, the Postal Service would incur salary costs regardless of whether
grievances were filed. We believe management’s current practice of tracking total costs
on an annual basis and its ability to monitor grievance activity at various levels of the
grievance-arbitration process should provide sufficient information to manage these
associated costs.




                                                10
Grievance Settlement and Arbitration Award Payments       HM-MA-08-002



                      APPENDIX D. MANAGEMENTS COMMENT’S




                                                11
Grievance Settlement and Arbitration Award Payments   HM-MA-08-002




                                                12
Grievance Settlement and Arbitration Award Payments   HM-MA-08-002




                                                13
